Nos. 19-840, 19-841

 

In THE
Supreme Court of the United States

CALIFORNIA, ET AL.,

Petitioners,
v.

TEXAS, ET AL.,
Respondents.

UNITED STATES HOUSE OF REPRESENTATIVES,
Petitioner,
v.
TEXAS, ET AL.,
Respondents.

On Petitions for a Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

BRIEF OF AMICI CURIAE
ALLIANCE OF COMMUNITY HEALTH PLANS AND
ASSOCIATION FOR COMMUNITY AFFILIATED
PLANS IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,797 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 16, 2020.

 

Colin Casey Hoggn
Wilson-Epes Prirtting Co., Inc.
